      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




March 10, 2010

TO:            Charlene M. Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of Separately Billed Laboratory Tests Submitted by Spectra Laboratories
               for Medicare Beneficiaries With End-Stage Renal Disease Receiving Dialysis at
               Fresenius Medical Care North America’s Facilities (A-01-08-00511)


Attached, for your information, is an advance copy of our final report on separately billed
laboratory tests submitted by Spectra Laboratories for Medicare beneficiaries with end-stage
renal disease receiving dialysis at Fresenius Medical Care North America’s facilities. We will
issue this report to Fresenius Medical Care North America within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov or Michael
J. Armstrong, Regional Inspector General for Audit Services, Region I, at (617) 565-2689 or
through email at Michael.Armstrong@oig.hhs.gov. Please refer to report number A-01-08-00511.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203



March 18, 2010

Report Number: A-01-08-00511

Mr. Todd Kerr
Senior Vice President & Chief Compliance Officer
Fresenius Medical Care North America
920 Winter Street
Waltham, MA 02451

Dear Mr. Kerr:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Separately Billed Laboratory Tests Submitted by
Spectra Laboratories for Medicare Beneficiaries With End-Stage Renal Disease Receiving
Dialysis at Fresenius Medical Care North America’s Facilities.” We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Stephen Conway, Audit Manager, at (617) 565-2946 or through email at
Stephen.Conway@oig.hhs.gov. Please refer to report number A-01-08-00511 in all
correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Todd Kerr


Direct Reply to HHS Action Official:

Mr. Rodney Benson
Director
Office of Acquisition and Grants Management
Centers for Medicare & Medicaid Services
Mail Stop C2-22-08
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL


 REVIEW OF SEPARATELY BILLED
LABORATORY TESTS SUBMITTED BY
  SPECTRA LABORATORIES FOR
 MEDICARE BENEFICIARIES WITH
   END-STAGE RENAL DISEASE
    RECEIVING DIALYSIS AT
   FRESENIUS MEDICAL CARE
  NORTH AMERICA’S FACILITIES



                      Daniel R. Levinson
                       Inspector General

                         March 2010
                        A-01-08-00511
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicare is a health insurance program administered by the Centers for Medicare & Medicaid
Services (CMS). Medicare covers eligible beneficiaries who have end-stage renal disease
(ESRD).

CMS established a composite rate method of payment to reimburse dialysis facilities on a per
treatment basis for outpatient maintenance dialysis services provided to ESRD beneficiaries.
The composite rate is a comprehensive payment for most services related to dialysis treatment.
CMS specifies the ESRD-related laboratory tests (hereafter referred to as “tests”) that are
included in the composite rate and the frequencies (e.g., per treatment, weekly, or monthly) at
which the tests are reimbursable as part of that rate. When the tests are performed at frequencies
greater than specified, the additional tests are separately billable and payable if they are
medically justified by accompanying documentation. In addition, certain routine tests that are
not included as part of the composite rate may be billed separately, but payment for more than
one of these tests performed in a 3-month period requires medical documentation.

Federal regulations require that all tests covered under Medicare be ordered by the physician
who is treating the beneficiary and that the physician who orders the tests maintain
documentation of medical necessity in the beneficiary’s medical record.

Spectra Laboratories (Spectra), a wholly owned subsidiary of Fresenius Medical Care North
America (Fresenius), performs tests for dialysis facilities.

Our review covered 2,771,777 claims for which Spectra was reimbursed $46,457,213 for tests
provided to ESRD beneficiaries who had dialysis treatments at any one of the 1,172 Fresenius
owned or managed dialysis facilities (Fresenius facilities) in calendar years (CY) 2004–2006.

OBJECTIVE

Our objective was to determine whether Medicare claims that Spectra submitted for tests
provided to ESRD beneficiaries at Fresenius facilities complied with certain ESRD-related
payment requirements and with Medicare requirements that items and services be reasonable and
necessary.

SUMMARY OF FINDINGS

Spectra correctly did not submit claims for composite rate tests that fell within the specified
frequencies or that Medicare would not have paid under the 50-percent rule, in accordance
with ESRD-related payment requirements. However, some claims that Spectra submitted
did not comply with Medicare requirements that items and services be reasonable and necessary.
Spectra correctly billed tests in 67 of the 100 beneficiary quarters that we sampled. However,
the remaining 33 beneficiary quarters contained errors totaling $1,079. This amount comprised:




                                                 i
      24 beneficiary quarters containing errors totaling $891 for separately billed tests that,
       based on an independent medical review by National Government Services, were not
       reasonable and necessary and

      12 beneficiary quarters containing errors totaling $188 for separately billed tests that
       were not reasonable and necessary because they were not ordered by the treating
       physician.

The beneficiary quarters that had errors totaled more than 33 because some beneficiary quarters
had more than one type of error.

Spectra did not have sufficient procedures in place to ensure that all tests billed to Medicare were
reasonable and necessary. In addition, Fresenius facilities did not have sufficient controls to
ensure that tests were ordered by the treating physician and were reasonable and necessary.

Based on our sample results, we estimated that Medicare overpaid Spectra $5.4 million for
separately billed tests provided to ESRD beneficiaries at Fresenius facilities during CYs 2004–
2006.

RECOMMENDATIONS

We recommend that:

      Spectra refund to the Medicare program $5.4 million in overpayments for CYs 2004–
       2006 and

      both Spectra and the Fresenius facilities strengthen their policies and procedures to
       ensure that all tests billed are reasonable and necessary, in compliance with Medicare
       requirements.

FRESENIUS COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Fresenius disagreed with our findings that certain tests were not reasonable and necessary, as
determined by independent medical review, but acknowledged that it was unable to produce
sufficient documentation of a physician’s order for some of the other tests billed. In addition,
Fresenius disagreed with our recommendations. We maintain that claims for certain tests in our
sample that were submitted by Spectra did not comply with Medicare requirements that items
and services be reasonable and necessary. Thus, we maintain that our findings and
recommendations are valid.

We have included Fresenius’ comments as Appendix D.




                                                 ii
                                                     TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              End-Stage-Renal-Disease-Related Payment Requirements ..........................1
              Medicare Payment Requirements..................................................................1
              Spectra Laboratories and Fresenius Medical Care North America ...............2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
              Objective .......................................................................................................2
              Scope .............................................................................................................2
              Methodology .................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................4

          FEDERAL REQUIREMENTS................................................................................4

          TESTS THAT WERE NOT REASONABLE AND NECESSARY AS
           DETERMINED BY INDEPENDENT MEDICAL REVIEW .............................5

          TESTS THAT WERE NOT REASONABLE AND NECESSARY BECAUSE
           THEY WERE NOT ORDERED BY THE TREATING PHYSICIAN.................6

          INSUFFICIENT CONTROLS.................................................................................6

          ESTIMATE OF UNALLOWABLE PAYMENTS .................................................6

          RECOMMENDATIONS.........................................................................................7

          FRESENIUS COMMENTS AND
           OFFICE OF INSPECTOR GENERAL RESPONSE ............................................7
                Deference to Physician Judgment................................................................7
                Basis for Recommending Stronger Controls ...............................................8
                Limitation of Liability Determinations........................................................9
                Estimated Unallowable Payments for Certain Tests ...................................9

APPENDIXES

          A: LABORATORY TESTS SUBJECT TO END-STAGE RENAL DISEASE
              PAYMENT REQUIREMENTS AND EXTRACTED FOR REVIEW

          B: SAMPLE DESIGN AND METHODOLOGY




                                                                    iii
C: SAMPLE RESULTS AND ESTIMATES

D: FRESENIUS COMMENTS




                           iv
                                        INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act), as amended, established Medicare, a health
insurance program administered by the Centers for Medicare & Medicaid Services (CMS).
Medicare covers eligible beneficiaries who have end-stage renal disease (ESRD).

CMS established a composite rate method of payment to reimburse dialysis facilities on a per
treatment basis for outpatient maintenance dialysis services provided to ESRD beneficiaries.
CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (Claims Processing Manual),
chapter 8, section 10.1, defines the composite rate as a comprehensive payment for services
related to dialysis treatment, “except for bad debts, physicians’ patient care services, and certain
laboratory services and drugs that are separately billable.”

End-Stage-Renal-Disease-Related Payment Requirements

CMS’s Medicare Benefit Policy Manual, Pub. No. 100-02 (Benefit Policy Manual), chapter 11,
sections 30.2.1.A and 70.2.A.1, specifies the ESRD-related laboratory tests (hereafter referred to
as “tests”) that are included in a dialysis facility’s composite rate and the frequencies (e.g., per
treatment, weekly, or monthly) at which the tests are reimbursable as part of that rate.
Composite rate tests include both automated multichannel chemistry (AMCC) profile tests and
non-AMCC tests.

Pursuant to the Benefit Policy Manual, chapter 11, section 30.2.1.A, when composite rate tests
are performed at a frequency greater than specified, the additional tests are separately billable
and payable “only if they are medically justified by accompanying documentation. A diagnosis
of ESRD alone is not sufficient medical evidence to warrant coverage of the additional tests.
The nature of the illness or injury (diagnosis, complaint, or symptom) requiring the performance
of the test(s) must be present on the claim … [and s]uch information must be furnished using the
ICD-9-CM coding system.”

CMS guidance on AMCC tests in the Claims Processing Manual, chapter 16, section 40.6.1, uses
the 50-percent rule, which specifies whether CMS will pay for these tests separately. In addition,
the Benefit Policy Manual, chapter 11, section 30.2.1.B, states that certain other routinely
provided non-AMCC tests (e.g., serum ferritin and serum aluminum) that are not included as part
of the composite rate may be billed separately, but that payment for more than one of these tests
performed in a 3-month period requires medical documentation and a diagnosis other than
ESRD.

Medicare Payment Requirements

Pursuant to section 1862(a)(1)(A) of the Act, “no payment may be made under [Medicare P]art
A or [P]art B for any expenses incurred for items or services … [that] are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member ….” In addition, section 1833(e) of the Act precludes payments to any



                                                  1
service provider under Medicare Part B unless the provider has furnished information necessary
to determine the amounts due such provider.

Federal regulations (42 CFR § 410.32(a)) state: “All … diagnostic laboratory tests … must be
ordered by the physician who is treating the beneficiary …. Tests not ordered by the physician
who is treating the beneficiary are not reasonable and necessary ….”

Spectra Laboratories and Fresenius Medical Care North America

Spectra Laboratories (Spectra), a wholly owned subsidiary of Fresenius Medical Care North
America (Fresenius), provides tests to ESRD beneficiaries for the 1,172 Fresenius owned
or managed dialysis facilities (Fresenius facilities), as well as for non-Fresenius facilities. For
each laboratory test requested by a Fresenius facility, Spectra receives a requisition that contains
the name of the ordering physician. However, Spectra does not receive a copy of the actual
physician order.

Spectra submits claims to its Medicare administrative contractors (MAC) for tests provided to
ESRD beneficiaries. Fresenius facilities submit claims to their MACs for ESRD-related services
included in the composite rate.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare claims that Spectra submitted for tests
provided to ESRD beneficiaries at Fresenius facilities complied with certain ESRD-related
payment requirements and with Medicare requirements that items and services be reasonable and
necessary.

Scope

We limited our review to claims that Spectra submitted for tests that were subject to Medicare
ESRD payment requirements. Our review covered 2,771,777 claims totaling $46,457,213 for
tests that Spectra provided to ESRD beneficiaries at 1,172 Fresenius facilities in calendar years
(CY) 2004–2006. The tests included in our review are listed in Appendix A.

In performing our review, we established reasonable assurance that the claim data were
verifiable and accurate. We did not assess the completeness of the National Claims History file
from which we obtained the data. We limited our review of internal controls to obtaining an
understanding of Spectra’s billing procedures for laboratory services provided to ESRD
beneficiaries and Fresenius’ policies and procedures related to medical record documentation
and physician orders.

We performed our fieldwork at Fresenius’ headquarters in Waltham, Massachusetts, from March
through June 2008.




                                                 2
Methodology

To accomplish our audit objective, we:

        reviewed applicable Medicare laws, regulations, and guidance;

        identified 1,172 Fresenius facilities that provided dialysis services during CYs 2004–
         2006;

        used data from CMS’s National Claims History file to match Fresenius’ ESRD composite
         rate paid claims with Spectra’s laboratory claims based on “from” and “through” dates of
         service;

        identified from our computer match 764,456 beneficiary quarters1 containing 4,612,700
         line items of separately billed tests totaling $46,457,213 (Appendix B) and selected a
         simple random sample of 100 beneficiary quarters containing 671 lines of service totaling
         $7,000 (Appendix C);

        reviewed Spectra’s policies and procedures applicable to separately billing ESRD claims
         for tests and Fresenius’ policies and procedures applicable to medical record
         documentation and physician orders and interviewed Spectra and Fresenius officials
         regarding these policies and procedures;

        reviewed all beneficiary information (dialysis treatment dates, physician orders,
         algorithms, physician declarations, progress notes, diagnoses, drugs administered, test
         results, and other information from medical records) that Spectra and Fresenius provided
         to support the tests billed for the sampled items; 2

        reviewed Spectra’s billing records, claims, and remittance advices for the sampled items;

        determined whether the tests listed in Appendix A and included in the 100 sampled
         beneficiary quarters were correctly billed;

        identified tests in our sample that were at high risk of not being reasonable and necessary
         and requested the assistance of a MAC, National Government Services (NGS), to conduct
         an independent medical review of the claims for these tests using the information that
         Spectra and Fresenius facilities had provided to us;

        estimated the potential overpayments (Appendix C); and

        discussed the findings with Fresenius, Spectra, and CMS.
1
 A beneficiary quarter comprises all separately billed and reimbursed tests listed in Appendix A that were
performed for an ESRD beneficiary during a calendar quarter.
2
  To assist in the audit process, Fresenius provided us with those parts of the beneficiaries’ medical records obtained
from the ordering physician that were relevant to the specific claims being reviewed. See 42 CFR § 410.32(d)(iii)(B).


                                                          3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Spectra correctly did not submit claims for composite rate tests that fell within the specified
frequencies or that Medicare would not have paid under the 50-percent rule, in accordance
with ESRD-related payment requirements. However, some claims that Spectra submitted
did not comply with Medicare requirements that items and services be reasonable and necessary.
Spectra correctly billed tests in 67 of the 100 beneficiary quarters that we sampled. However,
the remaining 33 beneficiary quarters contained errors totaling $1,079. This amount comprised:

      24 beneficiary quarters containing errors totaling $891 for separately billed tests that,
       based on an independent medical review by NGS, were not reasonable and necessary and

      12 beneficiary quarters containing errors totaling $188 for separately billed tests that
       were not reasonable and necessary because they were not ordered by the treating
       physician.

The beneficiary quarters that had errors totaled more than 33 because some beneficiary quarters
had more than one type of error.

Spectra did not have sufficient procedures in place to ensure that all tests billed were reasonable
and necessary. In addition, Fresenius facilities did not have sufficient controls to ensure that
tests were ordered by the treating physician and were reasonable and necessary.

Based on our sample results, we estimated that Medicare overpaid Spectra $5.4 million for
separately billed tests provided to ESRD beneficiaries at Fresenius facilities during CYs 2004–
2006.

FEDERAL REQUIREMENTS

Pursuant to section 1862(a)(1)(A) of the Act, “no payment may be made under [Medicare P]art
A or [P]art B for any expenses incurred for items or services … [that] are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member ….” In addition, section 1833(e) of the Act precludes payments to any
service provider under Medicare Part B unless the provider has furnished information necessary
to determine the amounts due such provider.

Federal regulations (42 CFR § 410.32(d)(3)(i)) require, among other things, that for a claim
review, the entity that submitted the claim must provide, upon request by CMS,
“[d]ocumentation of the order for the services billed,” as well as diagnostic or other medical
information that the entity received from the ordering physician. Furthermore, § 410.32(d)(3)(ii)


                                                 4
states, in part, that “[i]f the documentation … does not demonstrate that the service[s are]
reasonable and necessary, CMS … [r]equests from the ordering physician … those parts of [the]
beneficiary’s medical record that are relevant to the specific claim(s) being reviewed.” In
addition, § 410.32(d)(3)(iii) states: “[t]he entity submitting the claim may request additional
diagnostic and other medical information … to document that the services it bills are reasonable
and necessary ….” Furthermore, § 410.32(d)(4)(i) states that, subject to certain exceptions, CMS
will review “all relevant documentation that is submitted with the claim (for example,
justifications prepared by providers, primary and secondary diagnoses, and copies of medical
records)” before denying a claim for services that are performed beyond the specified
frequency. 3

Federal regulations (42 CFR § 410.32(a)) state: “All … diagnostic laboratory tests … must be
ordered by the physician who is treating the beneficiary …. Tests not ordered by the physician
who is treating the beneficiary are not reasonable and necessary ….” Furthermore, 42 CFR
§ 410.32(d)(2)(i) states: “The physician … who orders the service must maintain documentation
of medical necessity in the beneficiary’s medical record.” In addition, § 410.32(d)(2)(ii)
requires, among other things, that the entity submitting the claim maintain documentation that it
receives from the ordering physician. Section 410.32(d)(2)(iii) further states: “[t]he entity
submitting the claim may request additional diagnostic and other medical information [from the
ordering physician] to document that the services it bills are reasonable and necessary ….”

TESTS THAT WERE NOT REASONABLE AND NECESSARY
AS DETERMINED BY INDEPENDENT MEDICAL REVIEW

NGS’s independent medical review, which included information from beneficiaries’ medical
records, found that Spectra received overpayments totaling $891 for tests that were not
reasonable and necessary in 24 beneficiary quarters. 4




3
  In practice, CMS often performs tasks such as these through its contractors. During the audit period, NGS was a
carrier and has since contracted with CMS to be a MAC. CMS is in the process of transitioning contracts from
fiscal intermediaries and carriers to MACs (Medicare Prescription Drug, Improvement, and Modernization Act of
2003, P.L. No. 108-173 § 911, Social Security Act, § 1874A, 42 U.S.C. §1395kk-1).
4
  NGS, in its capacity as a MAC, routinely performs postpayment medical reviews of claims. In performing its
independent medical review for this report, NGS used its normal standard of review when performing postpayment
medical reviews as a MAC.


                                                         5
           Example: Tests Determined by Independent Medical Review Not To Be
                               Reasonable and Necessary

       Beneficiary A had weekly calcium and phosphorus tests performed in July in
       conjunction with her dialysis treatments. One calcium and one phosphorus test are
       included in the composite rate each month. Spectra separately billed Medicare for
       the additional calcium and phosphorus tests with a diagnosis other than ESRD.
       The beneficiary’s medical record contained a standing order for monthly and
       weekly calcium and phosphorus tests. According to NGS’s independent medical
       review, the additional tests were not reasonable and necessary.


TESTS THAT WERE NOT REASONABLE AND NECESSARY
BECAUSE THEY WERE NOT ORDERED BY THE TREATING PHYSICIAN

Our review found that Spectra incorrectly billed and was reimbursed $188 for tests that had no
physician orders in 12 beneficiary quarters. Tests that are not ordered by the treating physician
are not reasonable and necessary.

                                Example: Tests That Were Not
                               Ordered by the Treating Physician

      Beneficiary B had three potassium tests performed during March in conjunction with
      his dialysis treatments. One potassium test is included in the composite rate each
      month. Spectra separately billed Medicare for the two additional potassium tests.
      Although the composite rate test was ordered by the treating physician, the
      beneficiary’s medical records contained no physician orders for the two additional
      tests. Therefore, the tests were not reasonable and necessary.


INSUFFICIENT CONTROLS

Spectra did not have sufficient procedures in place to ensure that all tests billed to Medicare were
reasonable and necessary. In addition, Fresenius facilities did not have sufficient controls to
ensure that tests were ordered by the treating physician and were reasonable and necessary.

ESTIMATE OF UNALLOWABLE PAYMENTS

Based on our sample results, we estimated that Medicare overpaid Spectra $5.4 million for
separately billed tests provided to ESRD beneficiaries during CYs 2004–2006 (Appendix C).




                                                 6
RECOMMENDATIONS

We recommend that:

      Spectra refund to the Medicare program $5.4 million in overpayments for CYs 2004–
       2006 and

      both Spectra and the Fresenius facilities strengthen their policies and procedures to
       ensure that all tests billed are reasonable and necessary, in compliance with Medicare
       requirements.

FRESENIUS COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

Fresenius disagreed with our findings that certain tests were not reasonable and necessary, as
determined by independent medical review, but acknowledged that it was unable to produce
sufficient documentation of a physician’s order for some of the other tests billed. In addition,
Fresenius disagreed with our recommendations. We maintain that claims for certain tests in our
sample that were submitted by Spectra did not comply with Medicare requirements that items
and services be reasonable and necessary. Thus, we maintain that our findings and
recommendations are valid.

We summarize Fresenius’ relevant comments and our responses below and have included
Fresenius’ comments as Appendix D.

Deference to Physician Judgment

Fresenius Comments

Fresenius asserted that “NGS’s medical necessity findings amount to unlawful second-guessing
of treating physicians.” Specifically, Fresenius stated that NGS had failed to give “legally
required deference to the good faith medical judgments of the treating physicians” when making
the medical necessity determinations for this audit. Fresenius maintained that each of the
medical necessity errors that NGS found involved tests that were ordered by treating physicians
for seriously ill patients and submitted with a specific diagnosis code other than ESRD that
supported the medical necessity of the tests. To support its position that the law requires that the
decisions of treating physicians be given substantial deference, Fresenius cited legal authorities,
including case law.

Additionally, Fresenius questioned the standard of review that NGS used. Fresenius maintained
that NGS should have followed the standard of review applied under the Corporate Integrity
Agreement (CIA) between Fresenius and the Office of Inspector General (OIG). That standard
of review was limited to determining whether the medical record included the diagnosis code
used as the basis for payment. Fresenius also asserted that it had asked us to explain the standard
of review that NGS used but that it had never received a satisfactory answer to this question.




                                                 7
Office of Inspector General Response

Fresenius overstated its position in asserting that our findings amount to unlawful second-
guessing of treating physicians. No clear and singular precedent requires the treating physician’s
opinion to be given substantial deference in the Medicare context. Furthermore, this report in no
way attempts to recommend how physicians should treat patients. Rather, this report points out
that, although some claims that Spectra submitted for tests provided to ESRD beneficiaries at
Fresenius facilities were billable on their face, the claims were not reimbursable because they did
not comply with Medicare requirements that items and services be reasonable and necessary.

As stated in the report, NGS is a MAC, and in that capacity, it routinely performs postpayment
medical reviews of claims on behalf of CMS. In performing its independent medical review for
this report, NGS used the same standard of medical review that it would apply when performing
postpayment medical reviews as a MAC. The standards for postpayment medical reviews are set
forth in CMS’s Medicare Program Integrity Manual, Pub. No. 100-08.

Finally, this audit was not bound by the terms of the CIA. Tests must be reasonable and
necessary to be reimbursable (section 1862(a)(1)(A) of the Act). Even if a test meets ESRD
billing requirements or could potentially pass the standard of review under the CIA, it may not
be reasonable and necessary. Fresenius acknowledged in its comments that a test that meets
ESRD billing requirements is “subject to review to determine whether it was ‘in fact reasonable
and necessary.’ ”

Therefore, we maintain that NGS’s medical review represents a sound process to determine the
medical necessity of tests billed, that NGS applied the same standard of medical review that it
would have applied had NGS conducted the review as part of the formal medical review process,
and that this review was appropriate.

Basis for Recommending Stronger Controls

Fresenius Comments

Fresenius maintained that we had no basis for our conclusion that Spectra did not have sufficient
procedures in place to ensure that all tests billed to Medicare were reasonable and necessary.
Fresenius stated that “Spectra already effectively controls against the ordering of unnecessary
testing by screening out and not billing for” certain tests that are not billable, as evidenced by
some of the report findings, and that NGS and OIG failed to identify any actions by Spectra that
caused or contributed to physicians’ ordering “allegedly medically unnecessary testing.”
Fresenius asserted that following the OIG recommendation would effectively require Spectra to
engage in an impossible permanent prepayment claim review process. Fresenius further stated
that it was unclear what other controls could be implemented to address the audit findings.

Office of Inspector General Response

As noted in the 1998 OIG Compliance Program Guidance for Clinical Laboratories (CPG), a
laboratory “should take all reasonable steps to ensure that it is not submitting claims for services



                                                 8
that are not covered, reasonable and necessary” (63 Fed. Reg. 45076, 45079). The CPG also
cautions that “Medicare may deny payment for a test that [a] physician believes is appropriate,
but which does not meet the Medicare coverage criteria … or where documentation … does not
support that the tests were reasonable and necessary for a given patient.” The CPG offers a
number of steps that laboratories may take to “ensure that the claims they submit to Federal or
private health care programs meet the appropriate program requirements.” These steps provide a
structure for establishing internal controls.

In response to Fresenius’ comment that Spectra effectively controls against the ordering of
unnecessary tests and that NGS and OIG failed to identify actions by Spectra that caused or
contributed to the ordering of such tests, we note that those issues are beyond the scope of this
report and reiterate that the focus of this report is on whether tests that Spectra billed were
reasonable and necessary. We have clarified the body of our report to better reflect this focus.

We therefore continue to recommend that both Spectra and the Fresenius facilities strengthen
their policies and procedures to ensure that all tests billed are reasonable and necessary, in
compliance with Medicare requirements.

Limitation of Liability Determinations

Fresenius Comments

Fresenius stated that NGS failed to make the Medicare-required limitation of liability
determinations in connection with its review. Citing the Act, Fresenius stated that these
necessary determinations “essentially provide financial relief to providers by obligating
Medicare to pay even for services that are determined to be unnecessary, provided the entity
supplying the services did not know, and could not reasonably have been expected to know, that
the services were not medically necessary at the time they were performed or is otherwise
without fault for the overpayment.” Fresenius concluded that the limitation of liability should
extend to Spectra for certain claims at issue.

Office of Inspector General Response

In the OIG audit context, NGS is not required to make limitation of liability determinations.
CMS (as the action official), through a MAC or other contractor, will determine whether the
potential overpayment of $5.4 million exists and, if necessary, determine whether the limitation
of liability provisions apply.

Estimated Unallowable Payments for Certain Tests

Fresenius Comments

Fresenius acknowledged that it was “not able to produce sufficient documentation of the
physician’s testing order” for certain claims but noted that this issue involved only 2.7 percent of
our sample payments. Fresenius stated that, under OIG’s guidelines, the 2.7 percent would not




                                                 9
justify estimating an overpayment. Fresenius further stated that it would “work with CMS to
refund the overpayments for these individual claims.”

Office of Inspector General Response

Contrary to Fresenius’ assertions, OIG does not use a minimum error rate threshold to determine
whether to estimate unallowable payments based on the results of a sample. Our estimate of
unallowable payments was based on all of the reported findings in total, complied with OIG
policies and procedures, and was based on a statistically valid methodology. For tests not
ordered by the treating physician, we found that 12 beneficiary quarters contained errors totaling
$188. This finding represents an estimated overpayment of $1.4 million 5 using statistically valid
methods of estimation.




5
 We calculated the point estimate by dividing $188 by 100 sampled items and multiplying the resulting amount
($1.88) by the number of units in the sampling frame (764,456).


                                                      10
APPENDIXES
                                                                                                       Page 1 of 3


    APPENDIX A: LABORATORY TESTS SUBJECT TO END-STAGE RENAL DISEASE
           PAYMENT REQUIREMENTS 1 AND EXTRACTED FOR REVIEW

Hemodialysis, Intermittent Peritoneal Dialysis, Continuous Cycling Peritoneal Dialysis,
and Hemofiltration

CPT Code 2          Non-AMCC3 Tests Included in the Composite Rate

Per Treatment

85013               Spun microhematocrit
85014               Hematocrit (Hct)
85018               Hemoglobin (Hgb)

Weekly

85610               Prothrombin time

Monthly

85007               Blood smear, microscopic examination with manual differential white blood
                     count (WBC)
85025               Complete blood count (CBC), automated (Hgb, Hct, red blood count [RBC]
                     WBC, and platelet count) and automated differential WBC count
85027               CBC, automated (Hgb, Hct, RBC, WBC, and platelet count)

CPT Code            AMCC Tests Included in the Composite Rate

Weekly

82565               Creatinine; blood

Thirteen per Quarter

84520               Urea nitrogen; quantitative




1
    Source: Medicare Benefit Policy Manual, Pub. No. 100-02, chapter 11, sections 30, 30.2.1, 30.2.2, and 70.2(A).
2
 The Current Procedural Terminology (CPT) code set is maintained by the American Medical Association to
communicate uniform information about medical services and procedures.
3
    AMCC = automated multichannel chemistry.
                                                                       Page 2 of 3


Monthly

82040        Albumin; serum
82310        Calcium; total
82374        Carbon dioxide (bicarbonate)
82435        Chloride; blood
83615        Lactate dehydrogenase
84075        Phosphatase, alkaline
84100        Phosphorus inorganic (phosphate)
84132        Potassium; serum
84155        Protein, total, except by refractometry; serum
84450        Transferase; aspartate amino

CPT Code     Non-Composite-Rate AMCC Tests Used To Calculate the
             50-Percent Rule

82247        Bilirubin; total
82248        Bilirubin; direct
82465        Cholesterol, serum or whole blood, total
82550        Creatine kinase; total
82947        Glucose; quantitative, blood (except reagent strip)
82977        Glutamyltransferase, gamma
84295        Sodium; serum
84460        Transferase; alanine amino
84478        Triglycerides
84550        Uric acid; blood

CPT Code     Separately Billable Tests Not Included in the Composite
             Rate – Limited in Frequency

One Every 3 Months

82108        Serum Aluminum
82728        Serum Ferritin

Continuous Ambulatory Peritoneal Dialysis

CPT Code     Non-AMCC Tests Included in the Composite Rate

Monthly

85014        Hematocrit (Hct)
85018        Hemoglobin (Hgb)
                                                                      Page 3 of 3


CPT Code    AMCC Tests Included in the Composite Rate

Monthly

82040       Albumin; serum
84075       Alkaline phosphatase
84450       Transferase; aspartate amino
82310       Calcium; total
82374       Carbon dioxide (bicarbonate)
82565       Creatinine; blood
83615       Lactate dehydrogenase
83735       Magnesium
84100       Phosphorus inorganic (phosphate)
84132       Potassium; serum
84155       Protein, total, except by refractometry; serum
84295       Sodium; serum
84520       Urea nitrogen; quantitative

CPT Code    Non-Composite-Rate AMCC Tests Used To Calculate the
            50-Percent Rule

84460       Transferase; alanine amino
82247       Bilirubin, total
82248       Bilirubin, direct
82435       Chloride; blood
82465       Cholesterol, serum or whole blood, total
82550       Creatine kinase; total
82977       Glutamyltransferase, gamma
82947       Glucose; quantitative, blood (except reagent strip)
84478       Triglycerides
84550       Uric acid; blood

CPT Code    Separately Billable Tests Not Included in the Composite
            Rate – Limited in Frequency

One Every 3 Months

85048       Leukocyte WBC, automated
85041       RBC, automated
85049       Platelet count, automated
                APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was all laboratory tests, grouped by beneficiary, calendar year, and quarter, that
were provided by Spectra Laboratories, a wholly owned subsidiary of Fresenius Medical Care
North America (Fresenius), and paid during calendar years (CY) 2004–2006. The population
included only those laboratory tests listed in Appendix A that were provided to beneficiaries with
end-stage renal disease at Fresenius owned or managed dialysis facilities .

SAMPLING FRAME

The sampling frame was a database consisting of 764,456 beneficiary quarters during which
laboratory tests were provided by Spectra Laboratories and paid during CYs 2004–2006.

SAMPLE UNIT

The sample unit was a beneficiary quarter.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

The sample size was 100 beneficiary quarters.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services, statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the beneficiary quarters in the sampling frame from 1 through
764,456. After generating 100 random numbers, we selected the corresponding sample items.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the value of unallowable payments.
 APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                      Sample Results

                                 Number of
                                 Beneficiary
                                              Value of
Frame     Sample    Value of      Quarters
                                             Unallowable
 Size      Size     Sample          With
                                              Payments
                                 Unallowable
                                  Payments

764,456    100       $7,000            33          $1,079



           Estimates of Unallowable Payments
  (Limits Calculated for a 90-Percent Confidence Interval)

           Point estimate            $8,245,499
           Lower limit                5,410,712
           Upper limit               11,080,286
                                     APPENDIX D: FRESENIUS COMMENTS                             Page 1 of 9




November 19, 2009


Michael J. Armstrong
Regional Inspector General for Audit Services
U.S. Department of Health & Human Services
 Office of Inspector General, Region I
Office of Audit Services
John F. Kennedy Federal Building
Boston, MA 02203

Re:        Audit Report A-01-08-00511 – Review of Separately Billed Laboratory Tests
           Submitted by Spectra Laboratories for Medicare Beneficiaries with End-Stage
           Renal Disease at Fresenius Medical Care North America’s Facilities

Dear Mr. Armstrong:

On behalf of Fresenius Medical Care North America (“FMCNA”), we appreciate this
opportunity to comment on the above-referenced audit report. As an initial matter, we believe it
is particularly noteworthy that the audit found 100 percent compliance with the Medicare billing
rules for end stage renal disease (ESRD) related laboratory testing, including the composite rate
frequency rules and the so-called “50/50 rule.” Given that these are among the most complicated
billing rules in the Medicare program, it is a testament to Spectra Laboratories and its
commitment to compliance that not a single billing error was found in nearly 700 lines of service
reviewed by the OIG.

Unfortunately, however, Spectra’s achievement is largely overshadowed by the audit’s findings
on medical necessity, which account for the vast majority of the asserted $5.4 million
overpayment. As the OIG’s report indicates, those findings are based entirely on a medical
record review conducted at the OIG’s direction by National Government Services (“NGS”), a
Medicare administrative contractor (or “MAC”). We have two fundamental disagreements with
this review and with the findings and recommendations resulting from it:

       •	 First, in assessing medical necessity, NGS and the OIG have failed to adequately
          consider and give the legally required weight to the clinical judgment of the patients'
          treating physicians, even though those physicians are in the best position to objectively
          determine which laboratory tests are necessary for monitoring the care of their serious
          and chronically ill patients; and



\\\DC - 027920/000009 - 2927806 v7



Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street         Waltham, MA 02451-1457     (781) 699-9000
                                                                                                                    Page 2 of 9

Mr. Michael J. Armstrong
November 19, 2009
Page 2


       •	 Second, we object to the OIG's conclusion that Spectra and FMCNA do not have
          sufficient controls in place to prevent the performing of, and billing for, tests that the
          patients' physicians have reasonably determined are medically necessary.

The comments that follow set forth the bases for these objections in greater detail, as well as note
the fact that NGS and the OIG failed to make the limitation of liability determinations required
by Medicare law. We also address below the audit’s other findings on documentation of
physician orders, which we accept as valid, but which involve less than three percent of the
claims at issue in the audit sample.

NGS’s Medical Necessity Findings Amount to Unlawful Second-Guessing of Treating
Physicians

To understand our objections to the audit’s medical necessity findings, it is helpful to begin by
briefly restating the applicable Medicare laws, rules, and guidelines for determining whether the
ESRD-related lab services reviewed in this audit are covered as reasonable and necessary in
accordance with Section 1862(a)(1)(A) of the Social Security Act. In focusing the audit on
ESRD-related lab services, the OIG examined Spectra’s billing for those tests that are either
included in the Medicare composite rate for dialysis (such as monthly serum calcium,
phosphorous and potassium tests, for example) or that are routinely paid at specified frequencies
for dialysis patients (such as quarterly ferritin testing). As the report notes, for these tests to be
separately payable, additional testing beyond the Medicare-specified frequencies must be (1)
ordered by the beneficiary’s treating physician, and (2) accompanied by documentation in the
form of an ICD-9 diagnosis code other than ESRD that justifies the specific medical need for
more frequent testing. 42 C.F.R. § 410.32(a); Medicare Benefit Policy Manual (Pub. 100-02),
Ch. 11, § 30.2.1.* In Medicare terms, there is a “presumption of medical necessity” for tests that
meet these requirements, but the claim is subject to review to determine whether it was “in fact
reasonable and necessary.” See Medicare Program; Negotiated Rulemaking: Coverage and
Administrative Policies for Clinical Diagnostic Laboratory Services (Final Rule), 66 Fed. Reg.
58787, 58810 (Nov. 23, 2001).

Our primary objection to this audit is that testing covered under the foregoing Medicare policies
is being denied without good cause and without giving the legally required deference to the good
faith medical judgments of the treating physicians. Notably, each of the medical necessity errors
asserted in this audit involves tests that, in accordance with the Medicare rules, were (1) ordered
by treating physicians for seriously ill ESRD patients under their direct care, and (2) submitted

*
 In addition, automated multi-channel chemistry (“AMCC”) tests are subject what is commonly referred to as the
“50/50 rule,” which essentially provides that when multiple AMCC tests are performed on the same day, then (1) if
50 percent or more of those tests are included within the composite rate, then none of the AMCC tests are separately
payable, and (3) if less than 50 percent of the tests are composite rate tests, then all of the AMCC tests are separately
payable. Id. at § 30.2.2.

\\\DC - 027920/000009 - 2927806 v7

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street                 Waltham, MA 02451-1457            (781) 699-9000
                                                                                                  Page 3 of 9

Mr. Michael J. Armstrong
November 19, 2009
Page 3


with a specific diagnosis code, other than ESRD, that supported the medical necessity of the
testing and that was confirmed through the audit to be documented in the medical record. Thus,
all of the tests at issue are presumptively covered by Medicare policy, so that the proposed
denials amount to the NGS reviewers second-guessing the medical judgments of treating
physicians as to how often otherwise covered testing was needed for individual patients. This is
not permitted under the laws governing the Medicare program.

Indeed, the Medicare statute literally begins with the prohibition “Nothing in this title shall be
construed to authorize any Federal officer or employee to exercise any supervision or control
over the practice of medicine or the manner in which medical services are provided.” 42 U.S.C.
§ 1395. One logical corollary to this prohibition is that the beneficiary’s physician generally
should decide what services are medically necessary. Thus, in assessing medical necessity,
courts have long employed what is known as the “treating physician rule,” which provides that
the judgment of the treating physician should be given “extra weight” or “a reasoned
basis…[should be supplied] for declining to do so.” State of New York ex rel. Holland v.
Sullivan, 927 F.2d 57, 60 (2d Cir. 1991). See also Bergeron v. Shalala, 855 F. Supp. 665, 668 (D.
Vt. 1994); Klementowski v. Secretary, Department of Health and Human Services, 801 F. Supp.
1022, 1025-26 (W.D.N.Y. 1992); Gartmann v. Secretary of United States Department of Health
and Human Services, 633 F. Supp. 671, 680-81 (E.D.N.Y. 1986). The concept of giving special
weight to the opinion of the treating physician originated in Social Security disability benefits
cases “because the treating source is inherently more familiar with a claimant’s medical
condition than are other sources.” Schisler v. Bowen, 851 F.2d. 43, 47 (2d Cir. 1988); see also
Magallanes v. Bowen, 881 F.2d 747, 751 (9th Cir. 1989) (greater weight is afforded to the
treating physician because “he is employed to cure and has a greater opportunity to know and
observe the patient”). As the court noted in Gartmann:

           This rule may well apply with even greater force in the context of Medicare
           reimbursement. The legislative history of the Medicare statute makes clear the
           essential role of the attending physician in the statutory scheme: “The physician is
           to be the key figure in determining utilization of health services.”

633 F. Supp. at 680-81 (emphasis supplied), quoting 1965 U.S. Code Cong. and Ad. News 1943,
1986.

In other words, under the treating physician rule, a Medicare claims reviewer is not permitted to
simply substitute his or her medical judgment for that of the treating physician. Rather, the
treating physician’s good faith medical judgments are entitled to substantial deference, meaning
they should be overturned in a post-payment claims review only if no reasonable physician
would consider the item or service under review necessary in the diagnosis, care, or treatment of
the patient.


\\\DC - 027920/000009 - 2927806 v7

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street          Waltham, MA 02451-1457      (781) 699-9000
                                                                                               Page 4 of 9

Mr. Michael J. Armstrong
November 19, 2009
Page 4


Accordingly, for eight years between 2000 and 2008, the standard of review under our Corporate
Integrity Agreement (“CIA”) with the OIG for laboratory claims generated by FMCNA facilities
was whether the diagnosis code used as the basis for payment was stated in the medical record.
If it was, the independent review organization could “not question that determination by the
physician.” It is puzzling to us why this standard – which gives proper deference to the treating
physician to determine how frequently covered testing needs to be performed – was not applied
in the present audit. It is abundantly clear, however, that it was not.

Indeed, it appears that no consideration – or at least no “extra weight” – was given to the medical
judgments of the treating physicians in the NGS medical review. It should be understood that
none of these physicians have a financial interest in Spectra Laboratories, nor do they stand to
profit in any way from their Medicare lab test orders. These physicians do have a tremendous
responsibility in caring for ESRD beneficiaries, who are among the sickest individuals in the
health care system. In addition to ESRD, virtually all dialysis patients have additional medical
complications, such as anemia, heart disease, bone disease, and diabetes, which add significantly
to the complexity of their care. In any given year, up to a quarter of ESRD patients on dialysis
die from complications related to their disease. Timely and regular laboratory testing is essential
to the effective care and treatment of these beneficiaries. Yet, NGS gives no extra weight to the
treating physicians in this audit as to how often testing should occur for their seriously ill ESRD
beneficiaries, or any reason for declining to do so.

Consider, for example, the following findings from the NGS medical review:

      •	 In Sample 24, the NGS reviewer denies a monthly ferritin test performed after the
         treating physician also ordered the administration of the drug EPOGEN® and
         intravenous iron two months earlier for treatment of the patient’s anemia. The stored
         iron measured by the ferritin test is essential to effective EPOGEN therapy. Thus, the
         denied test was not only reasonably ordered by the treating physician, but was in
         accordance with highly regarded clinical practice guidelines from the National Kidney
         Foundation’s Kidney Dialysis Outcomes Quality Initiative (the “KDOQI Guidelines”),
         which recommend that iron status tests be performed every month during initial
         EPOGEN treatment until the patient is on a stable dose. Notably, the patient’s
         EPOGEN and IV iron doses were adjusted multiple times throughout the audit period,
         and the patient’s hemoglobin level dropped below the target level on tests performed the
         week before and the day of the denied ferritin test.

      •	 In Sample 40, twice monthly calcium and phosphorous tests are deemed medically
         unnecessary by the NGS reviewer despite six occasions of abnormal phosphorus levels
         during the audit period, four occasions of abnormal calcium levels, and a documented
         need for Vitamin D drug therapy (Zemplar®) – all issues of concern to a treating
         physician and reasonable grounds for more frequent testing. Patients with phosphorous

\\\DC - 027920/000009 - 2927806 v7

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street      Waltham, MA 02451-1457      (781) 699-9000
                                                                                                 Page 5 of 9

Mr. Michael J. Armstrong
November 19, 2009
Page 5


            imbalances are at risk of many complications, including potentially life threatening
            calcification of soft tissue. Similarly, calcium imbalances can lead to severe organ and
            muscle dysfunction when calcium levels are too low, or mental state deterioration when
            levels are too high.

      •	 In Sample 53, the NGS reviewer denies calcium and phosphorous tests ordered in
         accordance with the Zemplar package insert, which recommends monitoring at least
         every two weeks for three months after initiation of the drug. Thus, the testing in this
         case again was not only reasonable, but also specifically recommended in FDA-
         approved labeling.

      •	 In Samples 63 and 73, the NGS reviewer rejects weekly potassium testing as
         unnecessary. Yet, the medical records document evidence of serious potassium
         imbalances, with abnormally high values 11 times during the audit period in Sample 63
         and eight times in Sample 73. High potassium levels can cause cardiac arrhythmia that
         may lead to sudden cardiac death, and even small changes may increase the risk of heart
         rhythm disturbances. As a result, the physician treating a patient with elevated
         potassium levels often will monitor lab values very closely, with a thought towards
         modifying the plan of care as necessary. In Sample 63, for example, medical record
         documentation shows that the physician responded to the abnormally high potassium
         readings by lowering the potassium level in the patient’s dialysis solution, which
         requires additional close monitoring against the potassium levels fluctuating too rapidly.

      •	 In Samples 13 and 72, the NGS reviewer denied calcium and phosphorous tests on the
         grounds that they were ordered more frequently than the every two weeks called for in a
         physician’s Zemplar dosing algorithm. Of course, it is neither required nor desirable for
         physicians to follow algorithms in every case. Indeed, the decision to depart from an
         algorithm may actually reflect appropriate attention to a patient’s individualized medical
         needs. Sample 13 also includes the denial of testing performed in accordance with the
         algorithm’s every two week frequency because the testing occurred during the fifth week
         of a five-week month, which the NGS reviewer inexplicably concluded “should be
         ignored.” The NGS reviewer also deems unnecessary testing performed following the
         conclusion of Vitamin D therapy because, in the reviewer’s judgment, it should have
         been performed two weeks after discontinuation, rather than one week post-treatment, as
         ordered by the treating physician.

Similar findings are made throughout the NGS review, with abnormal lab results, documented
physician and nurse monitoring of test results, and documented treatment changes repeatedly
deemed insufficient justification for testing ordered by treating physicians for seriously ill ESRD
patients. On the other hand, test results in the normal range were, at times, considered by the
reviewer to be irrefutable evidence that the tests were unnecessary. Clearly, such a position is

\\\DC - 027920/000009 - 2927806 v7

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street         Waltham, MA 02451-1457      (781) 699-9000
                                                                                               Page 6 of 9

Mr. Michael J. Armstrong
November 19, 2009
Page 6


unreasonable. A diagnostic test is, by definition, a test performed to help make a diagnosis, not
merely to confirm what one already knew.

Simply put, this audit is not about physicians carelessly or self-interestedly over-ordering tests
for a relatively healthy patient population. Rather, the documentation we furnished to the OIG in
support of these claims makes clear that the tests at issue were considered medically necessary
by treating physicians whose only motivation was to provide optimal care to their seriously ill
and medically complex patients. NGS and the OIG have not met their legal burden of
demonstrating that these judgments were unreasonable.

During the course of this audit, we repeatedly asked the OIG to explain the standard of review
that was applied by NGS. The actual standard was never articulated to us. The only thing
resembling an answer appears in footnote 4 of the report that was furnished to us for comment,
which merely states that “NGS used the same standard of review that it usually applies when
performing post-payment reviews as a MAC.” Whatever that standard is, it clearly is not one
that gives proper deference to the treating physician, as required by law. Thus, we are confident
that the overwhelming majority of proposed medical necessity denials from the NGS review
would not withstand scrutiny through the Medicare appeals process.

There is No Basis for the OIG’s Finding of Insufficient Controls on Medical Necessity

Our second concern is with the OIG's finding that "Spectra did not have sufficient procedures in
place to ensure that all tests performed and billed were reasonable and necessary." As a result of
that finding, the OIG recommends that "both Spectra and Fresenius facilities strengthen their
policies and procedures to ensure that all tests billed are reasonable and necessary."

We cannot disagree more strongly with these statements. As the audit found, Spectra already
effectively controls against the ordering of unnecessary testing by screening out and not billing
for thousands of tests per month that are not accompanied by a more specific diagnosis from the
ordering physician – other than just ESRD – to support the medical necessity of the testing. This
is what the Medicare rules require of clinical laboratories. Moreover, there is nothing in this
audit to suggest that Spectra performed an unusually high number of tests compared to other
laboratories that service dialysis facilities. Nor did NGS or the OIG identify any actions or
conduct on the part of Spectra that either caused or contributed to the ordering of allegedly
medically unnecessary testing.

Rather, in looking beyond the patients’ diagnoses to challenge how often physicians order testing
in individual cases, the OIG’s findings with respect to medical necessity are nothing short of a
federal agency substituting its judgment for that of physicians who have no financial interest
themselves in the tests performed, and are concerned only for the well-being of the patients in
their care. As if this were not sufficiently troubling, the OIG then proceeds to recommend that
Spectra and FMCNA, corporations that are not licensed to practice medicine, somehow perform
\\\DC - 027920/000009 - 2927806 v7

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street      Waltham, MA 02451-1457      (781) 699-9000
                                                                                                   Page 7 of 9

Mr. Michael J. Armstrong
November 19, 2009
Page 7


this role on a going-forward basis. This is not something that a laboratory or dialysis facility is
qualified or able to do as a legal or practical matter, given their roles in the health care system in
relation to physicians and the sheer volume of testing performed each day.

Spectra and FMCNA do believe they have an appropriate role to play in the care of the
beneficiaries that extends beyond the existing controls validated during this audit. That role
relates to the continuing education of physicians. Fortunately, medical science offers new
findings every day, and we strive to keep the physicians who practice in our facilities up-to-date
with regard to best medical practices. That role, however, must stop short of prescribing care for
a particular patient or refusing to carry out a doctor's orders. As the OIG itself recognizes in its
Compliance Program Guidance for Clinical Laboratories, “laboratories do not and cannot treat
patients or make medical necessity determinations” and “physicians…must be able to order any
tests that they believe are appropriate for the treatment of their patients." 63 Fed. Reg. 45076,
45079 (Aug. 24, 1998).

While we view it as Spectra's legal obligation to continue to perform the tests ordered by its
physician customers, responding to the OIG's recommendation would require Spectra to carry
out its own medical records review relating to each test prior to submitting the claim for the test
to Medicare, presumably using its own independent medical judgment (as NGS apparently has
done in this audit). It should go without saying to the OIG that this would be an impossible
undertaking, no different than permanent "pre-payment review" of all of its claims. Yet, it is not
clear to us what other controls could be put in place to address the OIG’s findings from this audit.

NGS Did Not Make the Limitation of Liability Determinations Required by Medicare Law

There also is no indication that NGS made the limitation of liability determinations that are
required from MACs in post-payment reviews. See Medicare Program Integrity Manual (Pub.
100-08), Ch. 3, § 3.4.1.B (“When a claim is denied, in full or in part, because an item or service
is not reasonable and necessary, contractors make and document §§ 1879, 1870 and 1842(l)
limitation of liability determinations as appropriate”). Such determinations are made necessary
by the cited provisions of the Social Security Act, which essentially provide financial relief to
providers by obligating Medicare to pay even for services that are determined to be unnecessary,
provided the entity supplying the services did not know, and could not reasonably have been
expected to know, that the services were not medically necessary at the time they were
performed or is otherwise without fault for the overpayment. The Centers for Medicare &
Medicaid Services (“CMS”) has explicitly confirmed that these limitation of liability provisions
are “equally applicable to laboratory services.” Negotiated Rulemaking Final Rule, 66 Fed. Reg.
at 58790.

In applying the limitation of liability provisions to the NGS medical necessity findings, it again
is relevant that each test in question was originally accompanied by an ICD-9 diagnosis code

\\\DC - 027920/000009 - 2927806 v7

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street        Waltham, MA 02451-1457       (781) 699-9000
                                                                                               Page 8 of 9

Mr. Michael J. Armstrong
November 19, 2009
Page 8


from the ordering physician that indicated to Spectra that the test was covered under the
Medicare composite rate billing rules (i.e., they were justified by a diagnosis other than ESRD).
Like all clinical laboratories, Spectra must rely on the diagnosis information it receives from
ordering physicians at the time of testing. Moreover, since the Spectra labs perform nearly four
million tests per month, they clearly are not in a position to confirm whether or not particular
tests are medically necessary, especially since the labs do not see the patients nor have access to
their medical records. Indeed, because much of the testing is performed during the night, and in
many instances the results are returned to the physician the next day, further inquiry into the
medical necessity of the testing before it is performed – beyond confirming that the diagnosis
provided is consistent with the applicable coverage rules, which, again, Spectra did without error
in this audit sample – would be impossible.

In historical correspondence and Medicare appeals decisions that we furnished to the OIG during
the course of this audit, CMS and administrative law judges have found that in such situations,
because the laboratory could not reasonably have known that the services would not be covered,
it should not be held liable for overpayments under the limitation of liability provisions.
Likewise, even if some of the tests proposed for denial by NGS arguably were not medically
necessary, limitation of liability protection should extend to Spectra for those services.

Other Documentation Errors Involve Less Than Three Percent of the Sampled Claims

We acknowledge that there were some cases in the audit sample where we were not able to
produce sufficient documentation of the physician’s testing order. With regard to this finding, it
should be understood that in the dialysis setting, individual test requisitions typically are
completed by facility staff based on physician orders that are maintained in the patients’ medical
records. Thus, these documentation errors amount to the facility misfiling or otherwise not being
able to produce the underlying order for testing that the facility requested from the lab.

Without denying our duty to provide documentation of the physician’s order, it is important to
put this aspect of the OIG’s findings in proper perspective:

     •	 First, the order documentation issue involves only 2.7% of the payments in the audit
        sample, which compares favorably to the national Medicare CERT error rate (3.7% in
        2008) and which, under the OIG’s own guidelines, would not be sufficient to justify an
        extrapolated overpayment. We will work with CMS to refund the overpayments for these
        individual claims.

     •	 Second, these are clerical errors of the sort that are inevitable in a still predominantly
        paper-based health care system, recognizing that the claims in the audit sample date back
        five years to 2004. This, of course, is one of the reasons why Congress has provided


\\\DC - 027920/000009 - 2927806 v7

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street       Waltham, MA 02451-1457     (781) 699-9000
                                                                                                 Page 9 of 9

Mr. Michael J. Armstrong
November 19, 2009
Page 9


           incentives to accelerate the transition to electronic medical records in the HITECH Act
           enacted into law earlier this year.

In the case of FMCNA, we have already committed over $100 million to implementing
electronic record-keeping solutions that will minimize these kinds of clerical errors. In the
meantime, we have enhanced our internal controls on maintaining signed physician orders in the
medical records, including increased training for dialysis facility staff and the addition of routine
reviews of order documentation to our internal facility quality assessment and improvement
processes.

Closing Comments

While we respect the important role that the OIG plays in protecting the integrity of the Medicare
program, this audit is simply wrong on both the facts and the law with regard to medical
necessity. We urge you to reconsider your findings under an appropriate standard of review that
gives due deference to the treating physicians and that recognizes – in accordance with long-
standing OIG guidance quoted above – that laboratories do not and cannot treat patients or make
medical necessity determinations.

Absent further clarification from the OIG, every clinical laboratory in the nation should be
concerned if it is the new policy of the OIG that, not only do the "treating physician rule" and
"limitation of liability" provisions no longer apply to clinical laboratory claims submitted for
Medicare reimbursement, but on a going-forward basis, clinical laboratories should have controls
in place to prevent the "performing and billing" for such tests in the first place. This simply is
not a lawful or workable approach to assessing medical necessity.

If necessary, we will address our concerns with the audit findings with CMS and through the
Medicare appeals process.

Sincerely yours,



Todd J. Kerr
Senior Vice President &
Chief Compliance Officer




\\\DC - 027920/000009 - 2927806 v7

Fresenius Medical Care North America
Corporate Headquarters: 920 Winter Street         Waltham, MA 02451-1457     (781) 699-9000
